What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Cardholder Services
PO Box 182477
Columbus, OH 43218-2477
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of the problem: If you think there is an error
on your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You may
call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit
limit.

If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you
as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Cardholder Services
PO Box 182477
Columbus, OH 43218-2477
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as
delinquent.

After we finish or investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the
amount we think you owe.
3550616

CARDHOLDER AGREEMENT
Defined terms – The following terms have defined meanings
in this agreement: “Account” means the credit Account
regulated by this agreement, “Card” means the plastic cards
issued under this agreement, including the numbers printed
on these plastic cards; “we,” “us” and “our” mean the financial
institution appearing on the face of a Card; “you” and “your”
mean anyone who signs an application for this Account or is
a guarantor of this Account; and “Approval Letter” means our
letter to you approving your application and describing some
of the terms of the Account (the “Approval Letter” which is
part of the agreement).
By signing, using or activating a Card, you accept the
terms and conditions of this agreement and of the Approval
Letter. If any provision of this agreement is determined to be
unlawful, the rest of the agreement will stand and the unlawful
provision will be deemed amended to conform to applicable
law. All Cards are our property and must be returned to us
immediately according to our instructions, and we may
repossess a Card at any time in our sole discretion.
1. Promise to pay – You agree to pay us the total amount
of purchases, cash advances, finance charges or other fees
or charges which arise from use of a Card by you or any
other person, unless the other person does not have actual,
implied, or apparent authority for such use and you receive
no personal benefit from the use. You agree to be jointly and
severally liable with anyone else who has made the same
promise.
2. Credit Limit – Your credit limit is stated on the credit card
carrier, as well as on your monthly statement. You promise
to make purchases and cash advances only up to your
credit limit. Your promise to pay continues to apply even if
the amount due exceeds your credit limit. Obtaining credit in
excess of your credit limit does not increase your credit limit.
We can change your credit limit at any time to any amount
(including zero). We will state the new credit limit on your next
monthly statement.
3. Purchases and cash advances – You may use your Card,
up to your credit limit, to buy or lease goods, services or
insurance wherever the Card is honored. You may also use
your Card to get a cash advance from participating financial
institutions. However, you agree not to use your Card for
any transaction that is illegal under applicable federal, state
or local law, and you understand that any such use will
constitute an event of default under this agreement. We are
not responsible for the refusal of anyone to honor your Card.
4. Monthly Statements – We will send you a statement at the
end of each billing cycle in which the Account has a balance.
The due date for your payment will be 25 days after the last
day covered by the statement.
5. Payments – You agree to make the minimum monthly
payments that are described in the Approval Letter, and to
make all payments on this Account at the address specified

on your monthly statement. We may accept late payments,
partial payments, post-dated checks, or any form of payment
containing a restrictive endorsement, without losing any of
our rights under this agreement. Our acceptance of checks or
money orders labeled “payment in full” or words to that effect,
will not constitute an accord and satisfaction nor a waiver of
any rights we have to receive full payment.
6. Balance Computation Method – We figure the interest
charge on your account by applying the periodic rate, as
stated in the enclosed disclosure table, to the “average daily
balance” of your account. To get the “average daily balance”
we take the beginning balance of your account each day,
add any new purchases/advances/fees, and subtract any
unpaid interest or other finance charges and any payments
or credits. This gives us the daily balance. Then, we add up
all the daily balances for the billing cycle and divide the total
by the number of days in the billing cycle. This gives us the
“average daily balance.”
7. Cash advance fee – Cash advances are subject to the
cash advance fee stated in the enclosed disclosure table. The
cash advance fee is a finance charge and is imposed on the
date of the cash advance. Interest does not accumulate on
this fee. The following transactions will be treated as cash
advances:
• Using your Card to obtain cash from a participating
Automated Teller Machine (“ATM”);
• Using your Card to obtain cash from a participating
financial institution;
• Using a convenience check drawn on the Account;
• Obtaining money orders, travelers checks, foreign
currency, lottery tickets, casino chips, vouchers
redeemable for cash or similar items.
• Balance transfers, if identified as cash advances on your
Approval Letter
8. Annual Fee – The annual fee, if there is one, on the
Account is stated in the enclosed disclosure table. The annual
fee is payable whether or not you use the Card.
9. Liability for unauthorized use – You may be liable for
the unauthorized use of your Card, whether due to loss
or theft of a Card or another reason. You will not be liable
for unauthorized use that occurs after you notify us orally
by calling 1-855-320-1462 or you notify us in writing by
mailing the notice to Cardholder Services, P.O. Box 182477,
Columbus, OH 43218-2477. In any case, your liability will not
exceed $50.
10. Default – You will be in default if you fail to make any
minimum payment or other required payment by the date that
it is due. You also will be in default if you violate any other
provision of this agreement and such violation materially
impairs the prospect of you paying the amount due on the
Account. Upon default, we may demand immediate payment
of the entire amount due on the Account and we may enforce
our right to this payment as permitted by law.

11. International Transactions – When you use your Card
for a transaction denominated in a currency other than U.S.
dollars, the transaction amount will be converted into U.S.
dollars by applying an exchange rate selected by the Card
Association from among the range of rates available in
wholesale currency markets or the government-mandated
rate on the date the transaction is processed. The rate chosen
may vary from the rate the Card Association itself receives.
When you use your Card in a transaction outside of the United
States to make a purchase, obtain a cash advance, obtain a
credit voucher, or reverse any of these transactions, a finance
charge equal to one percent of the amount of the transaction
(expressed as a positive number) will be assessed against
your Account. The foreign transaction Fee is imposed on
the date of the transaction. Interest does not accrue on the
foreign transaction fee. “Card Association” means either VISA
international or Mastercard International.
12. Credit Information – You authorize us to investigate
your credit standing when opening, renewing or reviewing
your Account, and you authorize us to disclose information
regarding your Account to credit bureaus and other creditors
who may inquire of us about your credit standing.
13. Other fees – The following charges will be charged to
your Account as appropriate:
A. Late and returned payment fees.
The following charges may be imposed, if applicable:
• Late Payment Fee: A late payment fee, in the amount
indicated in the enclosed disclosure table, may be
imposed if the required minimum payment due is not
received by the due date listed on the monthly periodic
statement.
• Returned Payment Fee: A returned payment fee, in the
amount indicated in the enclosed disclosure table, may
be imposed if your payment is returned for any reason.
B. Replacement Cards, copies, and special services.
We may charge you a reasonable fee for issuing
replacement cards, expediting delivery of your card, an
expedited payment method using a service representative,
providing photocopies and reprints that you request, and
other special services as allowed by law.
14. Amendments – We may amend or cancel this agreement
at any time by getting your consent as provided by law or by
giving you a notice of the amendments. Cards are property of
the Financial Institution and must be returned at our request.
YOUR BILLING RIGHTS:
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.

